MICHAEL BONIN,
Applicant,

v.
UNITED STATES,
Respondent.

AFFIDAVIT OF SERVICE
I, Judith P. Miller, oflawful age, being duly sworn, upon my oath state that I
have this 3rd day of October, 2019, mailed one copy of the Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit in the above entitled case to
each of the parties required to be served in this case. All parties required to be
served have been served via commercial carrier, to be delivered within 3 days of
posting, and an electronic version of the document to be transmitted via electronic
mail. The mailing was addressed to the following:
SEE ATTACHED
I declal'e under penalty of perjury that the foregoing is true and correct.

_fJ
/"
•
mii:

Executed on: October 3, 2019

Miller, Affiant

Subscribed and sworn before me this 3rd day of October, 2019.

KYLA NORCROSS
OFFICIAL SEAL
NOIIIY Public:. Slltll of ll(inols
My Commiulon Eii.pues

Dac:11mber 03, 2022

Eric Pruitt
Assistant United States Attorney for the
Northern District of Illinois
219 South Dearborn, 5th Floor
Chicago, Illinois 60604
eric. p rui tt@usdoj.gov
312-353-5300
David Bindi
Assistant United States Attorney for the
Northern District of Illinois
219 South Dearborn, 5th Floor
Chicago, Illinois 60604
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

